Assessment of the SEC Information
Technology Investment Process




                                March 26, 2010
                                Report No. 466
                                                      UNITED STATES
                                        SECURITIES AND EXCHANGE COMMiSSiON
                                                WASHINGTON. D.C.      20154a

     O ......'CIl 0 ...
'N."ECTOR GIlNIlR ... L




                                              MEMORANDUM
                                                     March 26, 2010


             To:                 Mary L. Schapiro, Chairman
                                 Charles Boucher, Director, Office of Information Technology

             From:               H. David Kotz, Inspector General, Office of Inspector General (OIG W))!<

             Subject:            Assessment of the SEC Information Technology Investment
                                  Process, Report No. 466

             This memorandum transmits the U.S. securities and Exchange Commission,
             OIG's final report detailing the resutts of our audit of the Commission's
             information technology process. This audit was conducted in accordance with
             our annual audit plan.

             Based on written comments received to the draft report and our assessment of
             the comments, we revised the report accordingly. This report contains nine
             recommendations. to which the Offices of the Chairman and Information
             Technology concurred with all. Management's full comments to this report are
             included in the appendices.

            Within the next 45 days, please provide GIG with a written corrective action plan
            that is designed to address the recommendations. The corrective action plan
            should include information such as the responsible official/point of contact, time
            frames for completing the required actions, milestone dat~s identifying how you
            will address the recommendations cited in this report, etc.
                                   ,.
            Should you have any questions regarding this report, please do not hesitate to
            contact me. We appreciate the courtesy and cooperation that you and your staff
            extended to our auditor.

            Attachment


            co:           Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                          Diego Ruiz, Executive Director, Office of the Executive Director
                          Lewis W,. yvalket, Deputy Director, Chief Technology Officer, Office of
                           Information Technology




             Assessment of the SEC Information Technology Investment Process         March 26, 2010
             Report No. 466
                                                        Page i
Assessment of the SEC Information
Technology Investment Process

                                Executive Summary
Background. The U.S. Securities and Exchange Commission (SEC or
Commission) has established a Capital Planning and Investment Control (CPIC)
process and structure for the approval and oversight of Information Technology
(IT) investments. The CPIC process provides for the ongoing identification,
selection, control, and the evaluation of information resource investments. The
process links budget formulation and execution functions, and is focused on the
agency’s missions and achieving specific program outcomes. Specifically, the
CPIC process addresses the decision criteria used in selecting IT investments,
as well as the use of defined performance measures in assessing the investment
outcomes in implementation and operation.

Objectives. The objectives of the audit were to determine whether the CPIC
process and procedures, and the IT investment structure made up of three
governing boards: the Project Review Board (PRB), Information Officers Council
(IOC), and Information Technology Capital Planning Committee (ITCPC), adhere
to governing Commission policy and applicable federal laws and regulations. We
also examined whether adequate procedures exist to ensure that major IT
investments are properly approved within the process. Lastly, we assessed
whether major IT investment projects were properly approved by the appropriate
IT board.

Prior OIG Audit Report. The OIG issued IT Capital Investment Decision-
Making Follow-up, Report No. 365, on the IT investment process on March 29,
2004, and the report consisted of 25 recommendations. 1 The report noted that
the Commission had made progress in the IT investment area, but found that the
Commission’s process still did not meet the minimum criteria of the Government
Accountability Office’s (GAO’s) Information Technology Investment Management
Maturity Model and was not in full compliance with applicable laws and
regulations. The report further found that the SEC’s IT investment decision-
making process remained a “significant problem” for the Commission, and that
the governance of this critical Commission function needed to be strengthened.
The OIG recommended that the Commission assign specific responsibility and
delegate appropriate authority for establishing a compliant and effective IT
decision-making process. The report further recommended that the SEC ensure
that the necessary changes were completed in a timely manner by the
implementation of a performance accountability process. However, at the time

1
 The audit was conducted as a follow-up to a previous review of the IT capital investment decision-making
process. Report No. 334, “IT Decision Making Process,” August 28, 2001.
Assessment of the SEC Information Technology Investment Process                          March 26, 2010
Report No. 466
                                                Page ii
we conducted our audit work for this audit, several recommendations in the prior
OIG report were not completely addressed; specifically, the recommendations
regarding the publishing of an IOC charter and establishing the Chief Information
Officer’s (CIO’s) authority. As of this date, five years later, we found that the CIO
still lacks the necessary authority to manage the CPIC process adequately.

Results. The audit found that several program improvements are needed within
the CPIC process regarding the Commission’s implementation of its CPIC
policies and procedures and the CIO’s authority. Specifically, we found that two
out of four investments we reviewed in a judgmentally-selected sample did not
follow the process prescribed in the CPIC policies and procedures and led to
significant decisions being made regarding IT investments without a meaningful
review by the appropriate boards. We also found that a lack of effective project
management is contributing to the agency’s failure to properly manage IT
projects.

In addition, we found that the CPIC policies need to be revised to create an
enforceable mechanism that divisions and offices within the Commission must
follow. Further, based on an OIG survey of IT investments within SEC, we found
the need for more direct involvement from the divisions and offices in IT
investments.

Finally, we found that the CIO’s authority is limited in contravention of pertinent
statute and the Office of Management and Budget guidance and, as a result, is
not able to manage and oversee the CPIC process adequately.

Summary of Recommendations. This report found significant concerns with
the IT investment process and makes 9 specific and concrete recommendations
to improve the process. 2

These recommendations are for the Commission to:

        (1) Improve the Office of Information Technology’s (OIT) oversight of IT
        investments to ensure that the requirements in the CPIC policies and
        procedures are followed.

        (2) Require that status updates on all ongoing projects be provided
        every six months to manage resources for IT investments.

        (3) Immediately fill a critical vacant project management position with an
        experienced and qualified candidate.

        (4) Perform an assessment of the project management functions to ensure
        an appropriate ratio of projects to project managers.
2
  The audit also re-issues and expands upon two OIG recommendations contained in its 2004 report
regarding the CIO’s position.
Assessment of the SEC Information Technology Investment Process                       March 26, 2010
Report No. 466
                                              Page iii
       (5) Delegate to the CIO authority necessary for the management and
       oversight of the CPIC process, including full authority to develop and
       execute all IT policies.

       (6) Revise the Code of Federal Regulations to provide the CIO with full
       authority to develop IT policies.

       (7) Revise the SEC’s internal regulations to create an enforcement
       mechanism for the CPIC process.

       (8) Conduct periodic internal reviews to ensure that requirements
       applicable to IT investment management are properly enforced.

       (9) Require that all SEC divisions and offices use OIT’s project
       management system, and update and maintain the data in the
       system for the investments within their program areas.




Assessment of the SEC Information Technology Investment Process       March 26, 2010
Report No. 466
                                        Page iv
Table of Contents
Executive Summary ...................................................................................................... ii

Table of Contents ......................................................................................................... v

Background and Objectives
     Background ........................................................................................................ 1
     Objectives .......................................................................................................... 3

Findings and Recommendations
     Finding 1: IT Investments Did Not Follow the Formalized Process
               Prescribed in the CPIC Policy and Procedures .................................. 5
                    Recommendation 1..................................................................... 14
                    Recommendation 2..................................................................... 14

         Finding 2: IT Projects Have Not Been Properly Managed................................ 14
                       Recommendation 3..................................................................... 18
                       Recommendation 4..................................................................... 18


         Finding 3: The Chief Information Officer’s Control is Limited Because He
                    Lacks the Authority Required by Statute to Adequately Manage
                    IT Resources.................................................................................... 18
                       Recommendation 5 ..................................................................... 21
                       Recommendation 6..................................................................... 21

         Finding 4: The CPIC Policy Needs to be Revised to be Enforceable
                    Throughout the Commission ......................................................... 21
                      Recommendation 7..................................................................... 23

         Finding 5: The OIG Survey Revealed the Need for More Involvement from
                    the Division and Offices on IT Investments ................................... 23
                      Recommendation 8 ..................................................................... 29
                      Recommendation 9..................................................................... 29

Appendices
    Appendix I: Acronyms. ..................................................................................... 30
    Appendix II: Scope and Methodology............................................................... 31
    Appendix III: Criteria......................................................................................... 34
    Appendix IV: List of Recommendations ........................................................... 36
    Appendix V: Management Comments.............................................................. 38
    Appendix VI: OIG Response to Management’s Comments ............................. 43



Assessment of the SEC Information Technology Investment Process                                   March 26, 2010
Report No. 466
                                                     Page v
Tables
     Table 1: 2007/2008 Investment Approval Thresholds ........................................ 6
     Table 2: 2009 Investment Approval Thresholds ................................................. 6
     Table 3: SEC IT Investment Projects Selected For Verification ......................... 7
     Table 4: Project Management Nine Knowledge Areas..................................... 15
     Table 5: Investment Team Roles ..................................................................... 26

Figure
     Figure 1: Fundamental Phases of the IT Investment Approach ......................... 2




Assessment of the SEC Information Technology Investment Process                      March 26, 2010
Report No. 466
                                              Page vi
                 Background and Objectives

Background
The U.S. Securities and Exchange Commission (SEC or Commission) has
established a Capital Planning and Investment Control (CPIC) process and
structure for the approval and oversight of Information Technology (IT)
investment projects. The primary mission of the CPIC process is to establish a
strategic approach as to how the Commission uses its IT funds. It serves as a
means of ensuring that the SEC’s IT investments achieve specific outcomes.
The CPIC process provides for the identification, selection, control, and
evaluation of investments in information resources. The process also addresses
the decision criterion that is used in selecting IT investments and the use of
defined performance measures in assessing an investment’s progress.

The process is controlled by three governing boards:
         1. Information Technology Capital Planning Committee (ITCPC);
         2. Information Officers Council (IOC); and the
         3. Project Review Board (PRB).

All projects must be reviewed initially by the PRB and must then be approved by
the IOC. Each board has a charter that outlines its role in the IT investment
process at various levels within the investment process.

CPIC Boards Roles and Responsibilities. The ITCPC meets quarterly and
serves as the highest IT investment body within the CPIC process. Its role is to
achieve the SEC’s mission and goals, maximize value, manage risk, achieve
efficiency and effectiveness, and assign responsibility and accountability. The
ITCPC provides strategic direction to the IOC and PRB on executive level
selection, control, and evaluation of agency-wide IT investments. The ITCPC is
charged with ensuring that the Office of Information Technology (OIT) publishes
CPIC policies, procedures, and selection criteria, and will periodically review
those materials to ensure they comply with external mandates and effectively
support the SEC's decision-making process.

The IOC meets every month and is comprised of senior officers within the
Commission. Its primary role is to select and evaluate IT investments that meet
the strategic direction of the agency and to provide sound and diverse advice to
the Chief Information Officer (CIO) on the Commission’s IT portfolio. The IOC is
responsible for providing recommendations to the investment sponsor prior to the
presentation of the investment proposal and periodically reviewing the results of
completed investments. The IOC is also responsible for conducting periodic
reviews of the entire IT portfolio and assigns action items to IOC members or OIT
Assessment of SEC Information Technology Investment Process         March 26, 2010
Report No. 466
                                        Page 1
staff for resolution and reporting. The IOC takes different roles with respect to IT
investments depending on the cost of the project.

The PRB meets weekly and is charged with ensuring that IT investments are
selected, controlled, and evaluated after completion. The PRB is also required
to: (a) Ensure the soundness and viability of proposed IT investments prior to
selection; (b) Make sure that staff and budget resources for projects are fully
planned before, and managed during, project execution; (c) Inform, advise, and
make recommendations to the CIO and OIT senior management; and (d) Provide
guidance and assistance to project managers to ensure the full scope of each
project is completed on time and within budget.

Federal IT Investment Management Model. A central tenet of the federal
approach to IT investment management has been the select/control/evaluate
model, as illustrated in Figure 1, Fundamental Phases of the IT Investment
Approach. The Government Accountability Office (GAO) initially identified this
model, which provides a systematic method for agencies to minimize risks while
maximizing the returns of investments. 3

Figure 1: Fundamental Phases of the IT Investment Approach




         Select Phase                   Control Phase
         • Screen                       • Monitor
         • Rank                           progress
         • Choose                       • Take
                                          corrective
                                          actions




                        Evaluate
                        Phase
                        • Make
                          adjustments
                        • Apply
                          lessons
                           learned
Source: GAO




3
  GAO-04-394G, GAO Executive Guide, “Information Technology Investment Management: A Framework
for Assessing and Improving Process Maturity, Version 1.1, March 2004 at pgs. 7-8.
Assessment of the SEC Information Technology Investment Process                 March 26, 2010
Report No. 466
                                            Page 2
During the select phase, as noted in Figure 1, the organization (1) identifies and
analyzes a project’s risks and returns before committing significant funds to a
project; and (2) selects those IT projects that will best support the organization’s
mission needs. This process should be repeated each time funds are allocated to
projects, even when reselecting ongoing investments. 4

During the control phase, the organization ensures that, as a project develops
and investment expenditures continue, the project continues to meet the
organization’s mission needs at the expected levels of cost and risk. If the
project is not meeting expectations or if problems have arisen, steps should be
taken quickly to address the deficiencies. If mission needs have changed in the
control phrase, the organization is able to adjust its objectives for the project and
appropriately modify expected project outcomes. 5

During the evaluate phase, actual and expected results are compared after a
project has been fully implemented. The purpose of this comparison is to
(1) assess the project’s impact on mission performance, (2) identify any
necessary changes or modifications to the project, and (3) revise the investment
management process based on lessons learned. 6

Contracting Officer’s Authority. Contracting Officers have the authority to
enter into, administer, and terminate contracts. They may bind the Government
only to the extent of the authority delegated to them. Contracting Officers receive
clear instructions in writing from the appointing authority, regarding of the limits of
their authority. Contracting Officers must ensure that no contract is entered into
unless all requirements of law, executive orders, regulations, and all other
applicable procedures including clearances and approvals, have been met.

Objectives
The objectives of the audit were to examine whether SEC divisions and offices
have established procedures to ensure that major IT investments are properly
approved by the CPIC boards, specifically, the PRB, IOC and/or the ITCPC. The
audit objectives also were to:

     •    Determine whether the CPIC process and procedures and the PRB, IOC,
          ITCPC structures adhere to governing Commission policy and applicable
          federal laws and regulations;

     •    Examine whether procedures exist to ensure that major IT investments
          are properly approved within the CPIC process and are presented to the
          PRB, IOC and/or ITCPC as appropriate; and
4
  Id. at p. 8.
5
  Id.
6
  Id.
Assessment of the SEC Information Technology Investment Process          March 26, 2010
Report No. 466
                                        Page 3
   •   Assess whether major IT investment projects are properly approved by the
       appropriate CPIC board(s).




Assessment of the SEC Information Technology Investment Process   March 26, 2010
Report No. 466
                                        Page 4
               Findings and Recommendations

We determined that the SEC has a documented structure, approval process and
adequate procedures that adhere to governing Commission policy and applicable
federal laws and regulations. We also found that comprehensive procedures are
documented for major IT investments, but that the procedures are not
consistently followed throughout the Commission. In this audit, we assessed
whether major IT investments were properly approved by the appropriate CPIC
board and identified some deficiencies and areas of non-compliance.
Specifically, we found that although the Commission has established a
comprehensive CPIC process and structure for the approval and oversight of IT
investments, there are still some areas that should be enhanced. The SEC has
gone to great lengths, and expended significant resources to develop an IT CPIC
structure, approval process and procedures that adhere to federal laws and
regulations. However, the Commission is not adequately implementing all
phases of the CPIC process and procedures that are contained in its regulations
and implementing instructions. More specifically, we found that:

         1) IT investments did not always follow the formalized CPIC process;
         2) IT projects were not adequately managed;
         3) The CIO’s control is limited because he lacks the necessary authority
            required by statute;
         4) The CPIC policy needs to be enforced throughout the SEC; and
         5) A need exists for more direct involvement in IT investments by the
            Divisions and Offices.


Finding 1: IT Investments Did Not Follow the
Formalized Process Prescribed in the CPIC Policy
and Procedures
         Two of four investments selected for OIG review did not
         follow the formalized process prescribed in the Capital
         Planning and Investment Control policies and procedures.

The SEC’s CPIC Process. All projects regardless of budget must initially be
reviewed by the PRB for soundness and viability within the Commission’s
architecture. 7 As the scope of this audit covered calendar year 2007 to June
2009, OIG reviewed two different threshold requirements, because the

7
  This information was obtained from an internal OIT restricted SharePoint site that has Capital Planning and
Investment Control data, such as an overview of the process, meeting information, board links,
portfolio/project data and threshold information by fiscal year.
Assessment of the SEC Information Technology Investment Process                            March 26, 2010
Report No. 466
                                                 Page 5
requirements changed for 2009. IT investments approved in 2007 and 2008
were subject to the approval thresholds shown in Table 1 as follows:

            Table 1: 2007/2008 Investment Approval Thresholds
             Investment Amount Who Reviews?

             Less than $200,000              With approval from the CIO, the PRB may
                                             review and approve the investments.
             Above $200,000                  The IOC must approve.
            Source: OIT

Table 1 illustrates in 2007 and 2008, investments costing $200,000 or less were
approved by the PRB if they met the technical requirements of the Commission’s
architecture, as determined by the CIO. The PRB consists of managers within
OIT and a representative from the Office of Acquisitions. Investments of
$200,000 or more were required to be presented to the IOC for approval. 8

Investments approved or presented in 2009 were subject to the approval
thresholds shown below in Table 2:

           Table 2: 2009 Investment Approval Thresholds
            Investment     Who Reviews?
            Amount
             Less than               With approval from the CIO, the PRB will review and
             $100,000                oversee these investments.
             $100,000 to             With approval from the CIO, the PRB will review
             $250,000                these investments and determine if they need to be
                                     forwarded to the IOC or can be approved at the PRB
                                     level.
             Above                   The IOC must approve any projects that are greater
             $250,000                than $250,000.
           Source: OIT

In 2009, if an investment was less than $100,000, the PRB would oversee the
investment after it had been approved by the CIO. The same process applied for
investments ranging from $100,000 to $250,000, unless the PRB chose to
forward them to the IOC for approval due to visibility, impact on the agency or
other reasons. Finally, all investments greater then $250,000 had to be
approved by the IOC. 9

When an investment is forwarded to the IOC, the IOC reviews the investment
presentation from the requesting division or office and considers any advice
given from the PRB. The IOC then determines whether the investment is in-line
with the SEC’s strategic direction and the funds are available to execute the

8
    Id. at 2008 review thresholds.
9
    Id. at 2009 review thresholds.
Assessment of the SEC Information Technology Investment Process                    March 26, 2010
Report No. 466
                                                  Page 6
project. If these criteria are met, the investment is formally approved. For all
projects presented to a CPIC board, an approval or disapproval document is
prepared detailing the reason for the board’s decision. 10 If the project is
approved, the approval document, the project purpose, approval amount and
agreed upon timeframes for completion, are put into OIT’s project management
system for monitoring. 11

IT Project Verification. During our audit, we assessed whether major IT
investment projects were properly approved by the appropriate CPIC board. We
developed a web-based IT investment project questionnaire, which we sent to 34
divisions and offices within the Commission. 12 We utilized an online tool to
develop the survey, which consisted of multiple choice and short answer
questions. We also asked SEC divisions and offices to populate an
accompanying spreadsheet if they had any major IT investment(s) costing
$200,000 or more during January 2007 to June 2009. We received populated
spreadsheets from 7 of 34 SEC divisions and offices. Based on the seven
populated spreadsheets we received, OIG judgmentally selected four IT
investment projects for verification. 13

Table 3, shown below, identifies the four IT investment projects OIG selected for
verification: (1) Momentum Upgrade; (2) Regional Office Backup; (3) Automated
Procurement System; and the (4) Risk and Surveillance Data Analysis and
Reporting.

Table 3: SEC IT Investment Projects Selected For Verification
 SEC       Name of Investment      CY    Total Projected Followed CPIC
 Division/ Project                       Contract Cost      Process
 Office
 1. OFM          Momentum Upgrade                 2007         $3.4M                     Yes
 2. OIT          Regional Office Backup           2008         $200K                     No
 3. OAS          Automated                        2008         $3.5M                     No
                 Procurement System
 4. OCIE         Risk and Surveillance            2009         $300K                     Yes
                 Data Analysis and
                 Reporting
Source: SEC/OIT Clarity system and verification documentation.

For the IT investment projects selected for verification, the OIG conducted
interviews with the investment sponsors and/or project managers of those

10
   Implementing Instruction (II) 24-02.01.02 T01, Record of Decisions for IT Investments form. This
document is used to officially record IT investment decisions and to provide the necessary authorization to
proceed with the CPIC process.
11
   See Clarity system in the portfolio/project management information module.
12
   These included both divisions and offices at headquarters and the regional offices.
13
   In our survey, we defined major investments as projects costing $200,000 or more, or projects that were
highly visible within the Commission. The Executive offices, such as the Offices of the Chairman and the
Commissioners were not included in the survey results because they do not sponsor large IT investments.
Assessment of the SEC Information Technology Investment Process                            March 26, 2010
Report No. 466
                                                 Page 7
projects. We also reviewed support documentation for the projects, proposal
requests, board meeting minutes and presentation slides. Our verification
process found that two of the four investment projects did not follow the
formalized process prescribed in the CPIC policies and procedures. A detailed
review of the IT investment projects OIG selected for verification follows.

OIG Verification of IT Investment Projects
Momentum Upgrade. The IOC approved the Momentum Upgrade project for
$2.1 million in March 2007. The Office of Financial Management (OFM)
requested an emergency waiver from the CIO in August 2007 for additional
funding of $595,560 to fund the upgraded contract fully. In September 2007,
OFM asked OIT for an additional $500,000 for hardware and software and to
combine an IT project entitled, “Momentum Upgrade Licenses and Servers,”
which already had an investment of $87,500, with the overall Momentum
upgrade project. This addition increased the total funding for the project to $3.2
million. At the end of Fiscal Year 2007, the project received $200,000 in
additional “swept funds,” 14 increasing the total funding for the project to $3.4
million. Our audit of this project revealed that the formalized process and
procedures of the CPIC process were followed. We found two occasions in
which the project manager discovered an issue with the investment. In the first
instance, the project manager made a proper change request with the IOC for
the additional funds and, in the second instance, he requested an emergency
waiver from the CIO.

Risk and Surveillance Data Analysis and Reporting. The Risk and
Surveillance Data Analysis and Reporting project is a 2009 IT investment that the
IOC approved in April 2009 for $300,000. The Office of Compliance Inspections
and Examinations (OCIE) requested this investment to develop reporting
capabilities for risk management. To date, there have been no change requests
for this investment, and our audit revealed that the project complied with the
CPIC formalized process and procedures. Therefore, we determined this project
appears to be running smoothly and on target for an April 2010 completion date.

Regional Office Backup Project. The PRB approved the Regional Office
Backup project in June 2008 as a pilot to improve backup capabilities at the
regional offices, and it was funded for $200,000. At the time the project was
approved, the regional offices were having trouble storing data from past and
ongoing cases, and the project was intended to increase the storage capacity at
the offices. In September 2008, the sponsor appropriately submitted a change
request to the PRB because the delivery schedule for the equipment was

14
   “Swept funds” refer to a situation where a project previously approved did not require all the funds that
had been approved for the project and, accordingly, the funds are “swept” back into the budget and used for
other projects. The Momentum Upgrade project received additional funds that were swept from another
project.
Assessment of the SEC Information Technology Investment Process                            March 26, 2010
Report No. 466
                                                 Page 8
delayed and would impact the milestones established for the project. However,
during performance testing in March 2009, the sponsor discovered that the
project had major problems with overheating and performance. The server room
in a regional office was oversubscribed by approximately 19,000 BTU/hour 15 and
the additional equipment needed for the backup project would have made the
room worse. Also, the equipment purchased to improve the regional office
backup capability did not have the adequate performance levels needed by the
regional office and, in fact, would lower the regional offices’ case system
performance instead of improving it. The IT security group rated the project as a
high risk due to the problems identified during the security testing. Where
significant problems are found, the sponsor of a project is required to go back to
the PRB immediately and submit a change request. 16 In this case, the testing
highlighted problems with both (a) performance and delivery expectations; and
(b) documented technical and operational risks and expectations, either of which
would constitute a significant baseline change. 17

However, our audit found that contrary to the prescribed process, the sponsor did
not submit a change request in March 2009. Instead, the sponsor decided in
April 2009 to reuse the equipment to support the Alternate Data Center (ADC)
project and cancelled the Regional Office Backup project. Only in August 2009
did the sponsor finally return to the PRB, one year and two months after the initial
approval of the project and five months after the problems had been discovered
during the performance testing, to submit a change request and to inform the
board that the pilot did not work, the project was being cancelled and the
equipment purchased for the project was being used to support another ongoing
IT project.

At the time a project is approved, IT investment baselines are established. The
established “baselines document an agreement between the investment sponsor
and the CPIC decision authority to deliver, within a defined time frame, a specific
product or service at a specific cost.” 18 From our perspective the purpose of the
requirement that sponsors inform the CPIC decision authorities of significant
baseline changes in a project is to ensure that the changes to the documented
agreement are known and adequate for all parties involved. 19 In this case, the
PRB was not afforded an opportunity to state whether it approved the equipment
being used to support the ADC project because the sponsor decided to cancel
the project and re-purpose the equipment without notifying the PRB. This
resulted in the PRB incorrectly believing that the Regional Office Backup project
was on target and would address the regional offices’ storage problems.
Consequently, the SEC has expended $200,000 for equipment that did not work

15
   British thermal unit (BTU) is an imperial unit of measurement for heat.
16
   II 24-02.01.02, “Information Technology Investment Control” at p. 7.
17
   Id. at p. 7 requires CPIC Decision Authority Approval for Baseline Changes.
18
   II 24-02.01.02 at p. 6.
19
   The roles and responsibilities of the CPIC Decision Authorities (ITCPC, IOC, CIO) are described on p. 14
of II 24-02.01.02.
Assessment of the SEC Information Technology Investment Process                           March 26, 2010
Report No. 466
                                                 Page 9
for its intended purpose, and the regional offices still have a storage problem that
needs to be addressed.

Automated Procurement System. The Automated Procurement System (APS)
project was not formally approved by any CPIC board. The project evolved from
a multiple year project, the Strategic Acquisition Manager (SAM) project
sponsored by the Office of Administrative Services (OAS), which was approved
by the IOC in April 2005 to automate the SEC’s acquisition process and to close
out an outstanding audit finding. 20 Although the SAM project was eventually
cancelled, our review of the project management system’s (Clarity) status reports
for the SAM system did not reveal any problems identified by the sponsor that
were not resolved by the contractor. While the status comments revealed
defects identified during testing, they show that the contractor resolved all the
defects. For example, the January 2007 status comments provided that the
system failed User Acceptance Testing (UAT) and 88 critical system defects
were recorded by the test team during the UAT. The February 2007 comments
reflect that the contractor had remedied 100 percent of the 88 critical defects
found during the UAT.

In addition, documents establish that in April 2007, the SAM system owners had
completed re-testing of the repaired application, and the sponsor conditionally
accepted the system. The February 2007 comments further indicate that all
critical defect fixes had been applied to the system. We also learned from
reviewing status comments and discussions with the project manager that in April
2007, the critical and non-critical items were addressed and the sponsor fully
accepted the system. As a result, SAM was placed into production with limited
use on May 16, 2007. 21

We also found that in January 2008, the OAS director requested from the IOC
$350,000 in additional funding for customer support for SAM, which the IOC
approved.

OAS staff provided OIG with documentation highlighting the system’s poor
performance, as well as many concerns they encountered with the developer
once the system was fielded. OIG was informed that SAM was in use for over a
year; however, production was limited due to problems that were encountered.
Specifically, OAS staff provided the OIG with:

     •   Emails addressed to the developer communicating significant problems
         with the system that were not or could not be resolved;
     •   Screen shots of problems with the SAM modules; and

20
   Administration of Information Technology Contracts, Report No. 350, dated December 16, 2002,
Recommendation P.
21
   Discussions with the Office of the Executive Director (OED), OAS and OIT revealed that the system was
in production with limited use because it was never deployed to the entire contracting office.
Assessment of the SEC Information Technology Investment Process                          March 26, 2010
Report No. 466
                                               Page 10
     •   Dates of meetings held with the developer in an attempt to resolve the
         identified problems.

Further, OAS officials informed us that after several attempts to address the
problems with SAM, the system still had major problems that could not be
resolved. According to OAS, at a meeting in April 2008, the developer indicated
that a possible solution would be to upgrade the system at significant additional
cost to the Commission and hope that all of the problems would be addressed. 22
However, OAS indicated that the developer could not guarantee that all the
identified problems would be resolved with the upgrade. Therefore, OAS
management determined the only solution was to cancel the project.
Although OAS officials showed us email documentation of concerns about the
performance of the SAM system, these concerns were not documented in the
project management system’s (Clarity) status reports.

On June 23, 2008, OAS gave a “lesson learned” presentation to the IOC and
informed it of the SAM system’s cancellation, due to performance issues and a
plan to solicit companies to implement a new procurement system, the APS.
This presentation occurred three years and one month after the initial approval of
the SAM project and one year and five months after the problems were
discovered during the UAT. Moreover, this was merely a “lessons learned”
presentation. A formal request was never made for any IOC approval.

Because the APS project flowed out of the SAM project cancellation, OAS
commenced the APS project without formal approval from any CPIC board. OAS
management informed us that they did not believe IOC approval of the APS
project was required because, from their perspective it was not a new project but
a recompete, the SAM project had serious problems that would have cost
millions to correct, and OIT had already received approved funding from the SEC
Executive Director for the APS project. 23 However, our audit found that the APS
project was a separate and distinct project that according to CPIC policy required
IOC approval. On September 22, 2008, OAS awarded a contract to
CompuSearch for $3.5 million to implement the APS project.

Our audit found that similar to what occurred with the Regional Office Backup
project, major decisions to cancel the SAM project and start the APS project
were made without IOC approval. In our view, OAS should have gone back to
the IOC when it discovered SAM’s performance problems and provided the IOC
with the following options: 24


22
   Per the charts provided by OAS, this meeting was held in April 2008.
23
   Memorandum from the Executive Director (ED) to CIO dated June 25, 2008 stating during the mid-year
budget review that $3.5M was provided to OIT for the new acquisition system to replace SAM.
24
   II 24-02.01.02 at pgs. 6-7, provides that after an investment enters the execution phase, its baseline may
not be materially changed unless the appropriate CPIC decision authority (ITCPC, IOC, CIO) approves such
a change.
Assessment of the SEC Information Technology Investment Process                            March 26, 2010
Report No. 466
                                                 Page 11
       •    Correct the performance problems with the SAM system, which the testing
            showed had been corrected, and establish performance measures for the
            contract, explaining the costs that would be incurred in connection with
            this approach; or

       •    Cancel the SAM project and begin a new project, detailing the costs of this
            approach.

If the IOC had been provided these options, it would have been aware of the
issues and had the opportunity to make a sound decision as to the direction it
deemed appropriate based on the facts presented by OAS. Instead, the IOC
was deprived of this information and opportunity, as OAS informed the IOC of the
situation only after canceling the SAM project and making the decision to begin
the new APS project.

Accordingly, our audit found two of the four projects (Regional Office Backup and
APS) selected for verification did not comply with applicable processes and
procedures, and the IT boards were not afforded opportunities to conduct
meaningful reviews of them. These two projects had a combined total of almost
$4 million and are examples of projects that should have gone back to the boards
for approval before any action to cancel the projects, or to begin new projects,
were taken because both projects underwent significant baseline changes.

According to Section C of CPIC Implementing Instructions, an investment team is
required to return to the boards for approval of material baseline changes. 25 The
Implementing Instructions contains the following information for Baseline
Changes Requiring either PRB/Project Management Office (PMO) or CPIC
Decision Authority Approval:

            •    A baseline schedule change may be approved by the PMO or
                 PRB --
                       o A baseline schedule change is needed because of
                           delay in contract award (or in the delivery terms of the
                           contract) and the time delay does not increase the
                           investment’s cost. In such cases, the PMO may
                           approve the schedule baseline change.
                        o The PRB directs a change of an investment’s
                          baseline schedule on the basis that there are no
                          additional costs or technical impacts associated with
                          the schedule change, and the investment’s sponsor
                          approves of the change.
                        o The PRB directs a baseline schedule change to re-
                          allocate needed resources to another investment
25
     Id. at pgs. 6-7.
Assessment of the SEC Information Technology Investment Process             March 26, 2010
Report No. 466
                                            Page 12
                           based on overall portfolio priorities or other
                           operational considerations. The decision and
                           rationale shall be recorded in the PRB minutes.
                        o An investment team shall request a change in the
                          approved baseline when it is no longer advisable or
                          feasible to meet an established baseline commitment
                          because conditions exist that adversely affect:
                              o Costs, including those associated with a
                                related investment(s);
                              o Scope of the approved investment;
                              o Delivery schedules, other than those due to
                                contract award, or delays due to delivery terms
                                of the contract;
                              o Performance and delivery expectations;
                              o Documented technical and operational risks
                                and expectations; and/or
                              o Other critical factors essential to the
                                investment. 26
In the Regional Office Backup project, the testing highlighted problems with both
performance and delivery expectations and documented technical and
operational risks and expectations, either of which would constitute a significant
baseline change.

In the APS project, OAS cancelled the SAM project and started an entirely new
APS without formal approval from the IOC. According to the CPIC Implementing
Instruction, only the CPIC decision authorities (ITCPC, IOC and CIO), have the
authority to determine whether to continue, change or terminate an investment
when it fails to achieve its approved baselines. 27 OAS’ decision to cancel the
SAM project without proper approval resulted in an additional $3.5 million (SAM
had already cost $3 million) being spent to automate the acquisition process.
Also, in accordance with the Implementing Instruction, OAS should have gone to
the IOC when the UAT for the SAM system identified major problems because
the testing highlighted problems with both (a) costs, and (b) performance and
delivery expectations.

In summary, our audit found that despite the significant baseline changes, the
sponsors for both projects did not go to the PRB or IOC for approval before the
changes were made, as the CPIC policy requires. Instead, the sponsors went to
the board after the fact to inform them that the approved projects had been
cancelled, and they were either:
26
     Id. at p. 7.
27
     Id. at pgs. 6-8.
Assessment of the SEC Information Technology Investment Process              March 26, 2010
Report No. 466
                                           Page 13
       •   Utilizing the equipment for another project, or
       •   Starting an entirely new project.

Both actions are a direct violation of the CPIC policy and made it impossible for
the boards to conduct a meaningful review of the projects. Moreover, the fact
that 50 percent of the projects we judgmentally selected failed to follow
applicable procedures raises serious questions as to whether the CPIC policy is
being properly implemented and IT investments overall are being appropriately
and sufficiently evaluated and approved by the pertinent CPIC board.

       Recommendation 1:

       The Office of Information Technology should improve its oversight of
       information technology investments to ensure that projects are in
       compliance with the requirements in its Capital Planning and Investment
       Control policies and procedures specifically dealing with the
       implementation of the control and evaluate phases of the Capital Planning
       and Investment Control process.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OIT has concurred with this
       recommendation.

       Recommendation 2:

       The Office of Information Technology should require status updates
       be provided for all ongoing projects every six months to manage
       resources (staff, cost and time) for information technology
       investments over $200,000 and above.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OIT has concurred with this
       recommendation.


Finding 2: IT Projects Have Not Always Been
Properly Managed
       IT investments are not being properly managed because the
       project managers are overloaded with assignments, resulting

Assessment of the SEC Information Technology Investment Process      March 26, 2010
Report No. 466
                                        Page 14
          in projects not following the SEC’s formalized policies and
          procedures.

As discussed above, two of the four IT investments projects OIG selected for
verification found they were not appropriately managed and failed to follow CPIC
policies and procedures. We also learned through interviews with business
sponsors and project managers from OIT, OAS, OFM and OCIE, as well as data
obtained from the Clarity system, 28 that IT projects often have been plagued with
problems due to:

     •    The lack of a dedicated technical project manager;
     •    Unexpected cost overruns;
     •    Delays with software/hardware;
     •    System performance; and
     •    Inadequate development of requirements.

Project Management Resources. The effectiveness of the CPIC process
depends to a great extent on project management. Project management is the
application of knowledge, skills, tools and techniques to a broad range of
activities to meet the requirements of the particular project. It is a crucial element
in implementing any system or service, especially one involving a significant IT
investment. 29 Successful project management involves effective management of
nine knowledge areas, as illustrated in Table 4 below.

     Table 4: Project Management Nine Knowledge Areas
         Scope Management—defining and managing all work required to
         successfully complete the project.
         Time Management—ability to complete the project in a structured
         timeframe.
         Cost Management—preparing and managing a budget for the project and
         managing costs throughout the project’s life.
         Quality Management—ensuring the project will satisfy stated or implied
         needs of the organization and its stakeholders.
         Human Resources Management—making effective use of people to
         complete the project. This area involves delegating the most qualified and
         skilled person(s) to a specific task of the project to ensure the project is
         implemented effectively.
         Communications Management—generating, collecting, disseminating and
         storing project information for all stakeholders.
         Risk Management—identifying, analyzing, and responding to risks.
         Procurement Management—acquiring or procuring goods and services that
         are needed from outside the organization.

28
   Clarity is a comprehensive project management system. It is a web-based Project/Portfolio Management
information system and is used to support the Capital Planning Investment Control (CPIC) and project
management processes. Its purpose is to provide a central location to view all investment projects.
29
   Farm Credit Administration audit report 04-02, Project Management, dated September 9, 2004 at p. 1.
Assessment of the SEC Information Technology Investment Process                        March 26, 2010
Report No. 466
                                              Page 15
      Project Integration Management—overarching function that affects and is
      affected by all other knowledge areas. The collaborative effort of all the
      knowledge areas in executing the project.
                                                    30
     Source: Project Management Book of Knowledge


Effective project management is essential to ensuring that IT projects are
adequately managed and historical problems with these projects are remedied.
With the numerous IT-related initiatives currently being implemented to meet the
challenges facing the SEC and its increased dependence on IT solutions,
effective project management is more critical than ever. However, our audit
found that as the need for development, oversight and continuous monitoring of
IT investments has increased, the resources available to accomplish this work
have decreased. We learned from interviews with OIT management that they
were required to give up four slots during 2009, despite the fact that the office
was already understaffed. Moreover, we were informed that the Commission
had approximately 220 IT projects from 2007 to June 2009, and OIT only had a
staff of 12 technically certified project managers 31 to oversee IT projects.

Additionally, through interviews with business sponsors and project managers
within OAS, OCIE, OFM, the Office of Human Resources (OHR) and staff within
OIT, we found that project managers were assigned several in-depth projects
(220 projects to 12 project managers), but due to resource constraints, they
could not possibly dedicate the necessary time to manage the projects properly
and provide adequate oversight of them. As a result, IT investments were not
being managed during the control and evaluate phases of the IT investment
process.

Further, our audit found that OIT’s project management staff has been so
overloaded with assignments that, in many cases, they were unable to devote
sufficient time to a single project. In fact, the problems we identified with the two
projects discussed above may be directly attributed to inadequate project
management. The Regional Office Backup project was the result of poorly-
defined requirements resulting in the purchase of equipment with performance
problems that could not meet the needs of the agency. Although this was a
relatively small investment, sound management practices would have identified
the capacity needed prior to purchasing the equipment and potentially prevented
the expenditure of funds on inadequate equipment. More importantly, adequate
project management resources could have resulted in successfully addressing
the project’s need, i.e., the improvement of backup capabilities within the regional
offices, which still remains unaddressed.


30
   The Project Management Book of Knowledge guide is the considered to be the broadest and most widely
used standard reference of industry best practices for project management. A Guide to Project
                                     rd
Management Body of Knowledge, 3 edition PMI Standards Committee at appendix F at pgs. 338-341.
31
   Certified project managers are individuals who have received a PM Certification, per SEC Operating
Directive (OD) 24-02.04.T01, “IT Project Manager Qualification Checklist,” May 30, 2006 at pgs. 2-4.
Assessment of the SEC Information Technology Investment Process                       March 26, 2010
Report No. 466
                                              Page 16
Regarding the APS project, the system performance issues with SAM may have
been resolved if the project manager had the proper amount of time to devote to
the project, which could have prevented the loss of $3 million and avoided the
cost of a new investment. According to OAS, the failures of the SAM system
were not only performance problems with the contractor and system, but also
related to the lack of technical resources available to manage IT projects.

Based on the projects OIG verified, we found that OIT’s inability to provide
adequate technical resources for the IT projects forced the program offices to
contract out the project management function, resulting in increased project
costs. 32 In fact, OAS requested additional funds for APS project management,
and it has stated in presentations to the boards that costs for APS may continue
to increase due to the lack of resources within OIT.

Further, we found that the Project Management Office (PMO) Assistant Director
position within OIT has been vacant for over 18 months. This management
position is responsible for ensuring that the control and evaluate functions of the
CPIC process are adequately addressed within OIT. According to OIT, the
Assistant Director for the PMO also:

       •   Staffs the PMO branch (hires technical project managers);
       •   Ensures that approved projects are adequately staffed with the accurate
           mix of technical and program staff in order to successfully complete the
           project;
       •   Assigns the technical Project Managers(PM) within OIT to the projects;
       •   Establishes, oversees and manages the PM staff’s training program to
           ensure we have the adequate expertise to manage IT projects; and
       •   Communicates the CPIC process throughout the SEC.

With this crucial management position being vacant for such a long period
of time, the SEC has no one charged to ensure that the control and
evaluation functions of the CPIC process are accurately addressed and
managed. Our audit also revealed that the SEC hired a consultant, to
perform an assessment of the CPIC process in 2007. In a Executive
Briefing to the IOC, the consultant highlighted the same problem the OIG
identified with the Commission’s project management resources, stating
that the IOC needed to assess the capacity of available project managers
to oversee the portfolio of projects. 33 We found that as of the date our
report was finalized, this issue has still not been resolved.



32
  Both the APS and Risk and Surveillance Data Analysis and Reporting projects have contracted out the
project management function.
33
     The Consultant’s Executive Briefing responses dated November 19, 2007.
Assessment of the SEC Information Technology Investment Process                        March 26, 2010
Report No. 466
                                                Page 17
       Recommendation 3:

       The Office of Information Technology should immediately fill the position
       of Assistant Director for the Project Management Office with an
       experienced and qualified candidate.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OIT has concurred with this
       recommendation.

       Recommendation 4:

       The Office of Information Technology should perform an assessment of
       the project management function to compare the current ratio of projects
       per project manager to the industry’s acceptable ratio of projects per
       project manager.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OIT has concurred with this
       recommendation.

Finding 3: The Chief Information Officer’s
Control and Effectiveness Are Limited
Because He Lacks the Authority Required by
Statute to Manage IT Resources Adequately
       The CIO lacks the necessary authority to manage and
       oversee the CPIC process adequately.

Chief Information Officer Authority within the SEC

Several concerns about the IT process that were identified in our audit may also
be related to the CIO’s authority within the Commission. We found that the CIO’s
control and overall effectiveness are limited because the CIO does not have the
authority to enforce the Commission’s CPIC process.

The CIO currently holds a dual responsibility at the SEC, serving as the CIO and
the Director of OIT. Accordingly, while in his role as the OIT Director, the SEC
organizational chart indicates the individual reports directly to the Chairman. Our

Assessment of the SEC Information Technology Investment Process       March 26, 2010
Report No. 466
                                        Page 18
review of 17 CFR § 200.13 reveals that the Executive Director (ED) provides
administrative authority over the OIT Director. Specifically, the CFR states that
the ED provides “executive direction” in addition to “administrative control” and
has ultimate responsibility to approve substantive and operational IT policy. We
determined that the CIO/OIT Director reports to the ED and thus, does not have
the authority to influence substantive IT decisions that his direct supervisor (the
ED) makes.

The problem highlighted in Finding 1 with the APS project not following the
prescribed CPIC process is related to limitations on the CIO’s authority. OAS
management informed us that they did not know that they were required to obtain
the CPIC Board’s approval for the APS project because they viewed it as a
recompete and not a new project, and OIT had already received the funding from
the ED to go forward with the new project.

OAS is a “direct” report to the ED and the ED allocated funding and gave OAS
the approval to go forward with the new contract. Thus, the CIO was unable to
play any role in ensuring that the CPIC process was followed.

Moreover, we found the CIO/OIT Director’s dual-reporting structure as
implemented within the SEC violates the statutory requirements of 44 U.S.C. §§
3506(a) (2) (A) and (3) 34 which specifically provides that the CIO shall report
directly to the head of the agency. We also determined the reporting structure
limits his authority to manage IT resources for all Commission divisions and
offices adequately. The current reporting arrangement further violates the Office
of Management and Budget (OMB) guidance that provides that each Executive
“Department or Agency has a designated executive-level CIO reporting to the
head of the organization, with formal and full responsibility for all requirements
set forth in [applicable statutes, regulations and guidance].” 35 The OMB
guidance further provides that the agency CIO is to have “ultimate responsibility
for the governance, management and delivery of IT mission and business
programs” and “has an effective means of meeting this responsibility.” 36

The SEC has advised us that the Office of General Counsel has opined that the
CIO’s dual reporting relationship is not violative per se of the applicable statute,
since that statute requires that the CIO must report to the agency head with

34
   Under, 44 U.S.C. § 3506(a)(2)(A), ". . . the head of each agency shall designate a Chief Information
Officer who shall report directly to such agency head to carry out the responsibilities of the agency under this
subchapter [44 USCS 3501 et seq.]." 44 U.S.C. § 3506 (a)(3) provides that "[t]he Chief Information Officer
designated under paragraph (2) shall head an office responsible for ensuring agency compliance with and
prompt, efficient, and effective implementation of the information policies and information resources
management responsibilities established under this subchapter [44 USCS 3501 et seq.] . . . ."
35
   Memorandum for the Heads of Executive Departments and Agencies, M-09-02, Information Technology
Management Structure and Governance Framework, dated October 21, 2008, Attachment, Section I.A.
36
   Id. at Section I.B. It should be noted such “ultimate responsibility” on the part of the CIO remains subject
to the overall direction of the head of the agency who according to statute, is ultimately responsible for all
information technology operations and policies. See 44 U.S.C. §. 3544(a).
Assessment of the SEC Information Technology Investment Process                               March 26, 2010
Report No. 466
                                                  Page 19
respect to the specified substantive responsibilities, and therefore a CIO could
lawfully report to another senior executive with respect to purely administrative
matters. While OIG takes no position on whether this legal interpretation is
accurate, we found that at the SEC, the ED does in fact exercise substantive
authority over the CIO by virtue of the current reporting relationship which
violates the letter and intent of the statute as well as OMB guidance.

Furthermore, interviews revealed there is a perception within multiple
Commission divisions and offices that OAS, OFM and OHR are able to evade the
CPIC process without facing any consequences because the heads of these
offices report directly to the ED. The CIO is supposed to be the custodian of the
Commission’s IT resources; however, his ability to perform this task effectively is
limited by virtue of his reporting relationship with the ED.

OIG Prior IT Capital Investment Process Audit. The OIG issued IT Capital
Investment Decision-Making Follow-Up, Report No. 365, in March 2004. The
report made two recommendations to address the issue of the CIO’s authority as
follows:

       •   Recommendation 1 - The Chairman should delegate to the CIO the
           necessary authority to issue and enforce Commission-wide IT policy and
           regulations; and

       •   Recommendation 2 - The preparation of an Action Memorandum to the
           Commission to modify 17 CFR § 200.13 to formally delegate authority to
           issue IT policies and regulations to the CIO. 37

In our review of assessing whether the recommendations were closed, we found
that some work had been done in an effort to close out these old
recommendations; however, the recommendations were not fully addressed. For
recommendation 1, we found that the delegation authority states that the CIO is
responsible for advising and assisting the Office of the Chairman and the Division
Directors, Office Heads and Regional managers on IT and security related
matters. 38 In our view this does not give the CIO/OIT Director the full authority
needed to develop and approve IT policy throughout the Commission.
Furthermore, we discovered that the CIO/OIT Director currently develops IT
policy, but the ED approves and issues the policy.

For recommendation 2, a action memorandum was started, but it was never
completed and according to the current version of 17 CFR § 200.13, the ED still
maintains responsibility for developing and executing management policies of the



37
     IT Capital Investment Decision-Making Follow-Up, Report No. 365, issued March 29, 2004 at p. 9.
38
     CIO and ED delegation authorities signed by the Chairman on August 11, 2009.
Assessment of the SEC Information Technology Investment Process                            March 26, 2010
Report No. 466
                                                  Page 20
Commission for all its operating divisions and staff offices, including OIT. 39 This
regulation further illustrates the lack of authority that the CIO has when it comes
to controlling IT resources, which are substantive aspects of his responsibilities.

         Recommendation 5:

         The Chairman should formally delegate authority to the Chief Information
         Officer necessary for the management and oversight of the Capital
         Planning and Investment Control process, to include the full authority to
         develop and execute all information technology policy, as approved by the
         Chairman.

         Management Comments. Concur. See Appendix V for management’s
         full comments.

         OIG Analysis. We are pleased that the Chairman’s office has concurred
         with this recommendation.

         Recommendation 6:

         The Chairman should revise 17 CFR § 200.13 to provide the Chief
         Information Officer (CIO) with full authority to develop and issue
         Information Technology policies and carry out the prescribed substantive
         responsibilities under 44 U.S.C. § 3506 and OMB Guidance M-09-02 and
         remove the CIO/Director of the Office of Information Technology from
         under the supervision of the Executive Director or any position other than
         the Chairman for those substantive responsibilities.

         Management Comments. Concur. See Appendix V for management’s
         full comments.

         OIG Analysis. We are pleased that the Chairman’s office has concurred
         with this recommendation.




39
  The language of 17 C.F.R. 200.13 clearly provides for the Executive Director to have more than simple
administrative authority over the CIO in his role as head of OIT, as it specifies that the Executive Director
provides “executive direction” in addition to “administrative control” and has ultimate responsibility approving
substantive and operational IT policies. We reviewed 17 C.F.R. § 200.13 on LexisNexis, where it had been
updated through the January 14, 2010 issue of the Federal Register.
Assessment of the SEC Information Technology Investment Process                               March 26, 2010
Report No. 466
                                                  Page 21
Finding 4: The CPIC Internal Regulation Needs to
be Revised to be Enforceable Throughout the
Commission
           The formal CPIC policy document Securities & Exchange
           Commission Regulation (SECR) 24-02, does not have an
           enforcement mechanism to ensure that all Commission
           Divisions/Offices adhere to the policy.

The primary policy document governing the CPIC process applies to all SEC
divisions and offices and to all IT investments regardless of size. Section 5(j) of
SECR 24-02, states that “[t]he CIO shall hold all SEC personnel accountable for
the IT investments and resources entrusted to them.” 40 The provision further
states that “[t]he CIO shall work with the Associate Executive Director for Human
Resources to determine how to institutionalize such accountability.” 41 While we
commend OIT for having these statements in their policy, we could not determine
how the requirements are being implemented.

We discussed this issue with the CIO, who stated that he did not believe that OIT
and OHR have met to determine how to institutionalize the accountability
requirement of the policy. Also, during interviews conducted with business
sponsors from OAS, the Division of Enforcement, OCIE and OFM, we found they
were not aware of any specific responsibility for the divisions and offices to follow
the CPIC processes or policies.

Specifying in SECR 24-02 that it is the responsibility of Regional Directors,
Division Directors and Office Heads to ensure that all IT investments within their
control adhere to the formal CPIC policies would clarify this matter. Further, it is
important that OIT and OHR take the necessary steps to determine how to
enforce implementation of the policy adequately. Specifically, they need to
develop and provide the CIO and/or IOC, with an enforcement mechanism
applicable to investments that have been funded outside of the formalized CPIC
process. Doing so would strengthen the regulation, make it an enforceable
document and thus give the CIO further authority over the CPIC program.




40
     SECR 24-02, “Information Technology Capital Planning and Investment Control,” June 14, 2006 at p. 4.
41
     Id. at pgs. 4-5.
Assessment of the SEC Information Technology Investment Process                           March 26, 2010
Report No. 466
                                                 Page 22
        Recommendation 7:

        The Office of Information Technology should revise the SECR 24-02 to:

             •   Add a responsibility that the Division Directors, Office Heads, and
                 Regional Directors ensure that all information technology
                 investments within their responsibility adhere to the Capital
                 Planning and Investment Control policies and procedures.

             •   Create an enforcement mechanism for the Chief Information Officer
                 and Information Officers Council to utilize when they discover
                 investments that have been funded outside of the Capital Planning
                 and Investment Control process.

        Management Comments. Concur. See Appendix V for management’s
        full comments.

        OIG Analysis. We are pleased that OIT has concurred with this
        recommendation.

Finding 5: The OIG Survey Revealed the Need for
More Involvement with IT Investments by the
Divisions and Offices on IT Investments
        Program offices could not populate OIG’s generated
        worksheet with data for their projects because they were not
        directly involved in the day-to-day management of the
        projects.

The OIG developed and issued an IT Investment Project Questionnaire to 34
divisions and offices within the Commission. 42 Thirty of the 34 offices completed
the survey, resulting in an 88.2 percent response rate. The survey focused on
determining the number of major IT investments projects that are managed within
the SEC and was intended to aid the OIG in identifying the universe of SEC’s IT
investment projects. What follows are some of the relevant questions asked in
the survey and the responses OIG received.




42
  These 34 offices exclude the Chairman’s Office, Commissioner’s Offices, and offices with duplicative
responses.
Assessment of the SEC Information Technology Investment Process                           March 26, 2010
Report No. 466
                                                Page 23
       (Q4). Did your division/office acquire any IT Investment
       Projects during calendar year (CY) 2007 to 2009 (January to
       June) costing $200,000 or more?

                                                   Total
                             Yes        No       Responses
                              12        18          30
                             40%       60%         100%



       (Q5). Did your office exercise any "option years" during CY
       2007 to 2009 (January - June), for IT Investment Projects
       costing $200,000 or more?

                                                   Total
                             Yes        No       Responses
                              5          5          10
                             50%       50%         100%



       (Q6.) During CY 2007, 2008, and 2009 (January - June), for any
       given year did your office acquire two or more related IT
       Investment Projects costing $200,000 or more from the same
       vendor?

                                                   Total
                             Yes       No        Responses
                              5         8           13
                            38.5%     61.5%        100%



       (Q7). Did your division/office have any IT Investment Projects
       costing $200,000 or more that were disapproved, cancelled, or
       suspended during CY 2007 to 2009 (January - June)?

                                                   Total
                             Yes       No        Responses
                              2         9           11
                            18.2%     81.8%        100%

Results of OIG’s Review of the Selected Survey Questions. For affirmative
(yes) responses received to questions 4, 5, and 7, the divisions/offices were
asked to populate a worksheet. Although survey responses for question 4 (Q4)
indicated that 12 divisions/offices had IT investment projects costing $200,000 or
more, only 7 of 12 divisions/offices completed and provided OIG with the
required worksheets. Because all SEC divisions/offices did not complete the
survey and we did not receive worksheets from all of the divisions/offices that
Assessment of the SEC Information Technology Investment Process      March 26, 2010
Report No. 466
                                        Page 24
had IT investments of $200,000 or more, we could not determine the full universe
of major IT projects from calendar year (CY) 2007 to June 2009. We used OIT’s
project management system, Clarity, to identify the number of IT investment
projects that were managed from 2007 to 2009 and found there were
approximately 220. The survey results revealed the need for more direct
involvement from program offices and further supported the need for better
oversight from OIT during the control and evaluate phases of the CPIC process.

Our analysis of the survey revealed that 4 of 7, or 57 percent of divisions/offices
that provided OIG with a worksheet, could not populate the fields using their own
internal data. The divisions/offices had to request data from OIT or ask OIT to
provide data directly to the OIG. The fact that 57 percent of divisions/offices that
provided worksheets could not provide comprehensive data for projects within
their program areas is a significant concern. Clearly these divisions/offices were
not sufficiently involved in their IT projects since they could not provide
information on a particular project. While personnel in these program
divisions/offices are not expected to be IT specialists or technical project
managers, they should have some direct involvement in the IT investment that
was approved and funded to meet a need or improve a process within their
program area.

As the survey results illustrate, between CYs 2007 and June 2009, the
Commission had 12 divisions/offices that either had current IT investments
costing $200,000 or more; 5 divisions/offices exercised an option year, and 2
divisions/offices had an IT investment project that was disapproved, cancelled, or
suspended. Yet, over half of the respondents that provided worksheets (4 of 7)
could not provide detailed information on the projects for which they requested
approval from the CPIC boards.

SEC Operating Directive and the Roles of the Investment Team. SEC
Operating Directive 24-02.01 01.0 establishes and defines the roles and
responsibilities for approved IT projects. According to the Operating Directive,
when a project is approved, an investment team is assigned. The investment
team is made-up of individuals who are responsible for managing and overseeing
the project during the control and evaluate phases of the process. 43 An
investment team can include 10 members, mostly OIT staff; however, two people
must be from the program office. 44 Table 5, shown below, identifies and defines
the roles within investment teams.




43
     OD 24-02.01,” Information Technology Investment Management.” dated August 14, 2006 at pgs. 6-11.
44
     Id.
Assessment of the SEC Information Technology Investment Process                         March 26, 2010
Report No. 466
                                                Page 25
      Table 5: Investment Team Roles
       Roles            Definition
                        Champion of project approval and successful outcome.
                        Primary owner of the system and stakeholder of the project.
       Project
                        Provides constant vigilance to ensure that project continues to
       Sponsor*         meet the business need. Defines project goals. Sponsor
                        MUST provide adequate authority and support to enable PM
                        to be successful.

                        Technical Expertise - Owner of technical action items and
       Technical        outcomes including solution's technical design, development,
       Lead (TL)*       coordination of technical resources, execution of QA
                        processes, and acceptance of technical deliverables.

                        Functional business expertise - Owner of business action
                        items and outcomes including solution's business
       Business         requirements, coordination of business resources to support
       Lead (BL)*       the project, and design, execution and acceptance of
                        functional business deliverables. Drives user acceptance
                        testing (UAT), user training and system deployment phases.


                        Responsible for Successful delivery of project as approved.
       Project          Manage project and team to successful project conclusion.
       Manager          Responsible for project planning, communication,
                        coordination, dependencies, issue resolution and risk
       (PM)*            mitigation. Sponsor MUST provide adequate authority and
                        support to enable PM to be successful.


                        Administrative support tasks with no authority or responsibility
       Project          for project delivery. Supports and assists the PM; tasks are
       Expediter        essential and must be performed by the PM if no expediter is
                        assigned.

                        Explains OIT processes and helps to facilitate introductions
       OIT POC          and meetings between Project team members and key OIT
       (Not TL)         personnel. This person has no specific project related
                        responsibility.

                        CPIC and PM administration including entering project in
       PMO              Clarity; advice on CPIC activities, Clarity actions, monthly
       Support*         status reporting; and seeking management support. Not
                        responsible for approval or outcome of this project.




Assessment of the SEC Information Technology Investment Process                   March 26, 2010
Report No. 466
                                          Page 26
        Roles              Definition
                           Technical Contract Administration of the project - Manage
                           vendor, in accordance with COTR appointment, to comply with
        COTR*              all contract terms and requirements. Review and approve
                           vendor status reports, deliverables/milestones, invoices, and
                           incentive payments (if applicable). Close interaction with PM
                           to provide and receive shared information.
        Maintenance
        Manager            Owner of system maintenance. Responsible for system
        (MM)*              support once in production.

                           Alternative approaches to delineating responsibilities need to
        Other*             be clearly defined and agreed upon by all parties involved.
                           Please use the attached "Roles by Tasks" worksheet to
                           denote any variations.
       Source: OP 24-02.01.01.01.A01, IT Investment Plan Instructions
       *Required for each project. All others are ad-hoc roles invoked when necessary.

As illustrated in Table 5, OIT’s documented procedures clearly define the roles
needed for adequate project management. However, our audit found that these
procedures are not being followed for all IT investments. The current Operating
Directive requires that two positions (project sponsor and business lead) within
the investment team be filled by program office staff. However, this requirement
is not being followed for all IT projects. 45 For example, we could not find within
the Clarity system an investment team assigned for the IT projects we reviewed.
In addition, while we did find that in the four projects we reviewed, the sponsoring
office had identified a business sponsor and a project manager, we did not find a
business lead assigned for any of these projects. Furthermore, we discovered
that the business sponsors are often at the Associate or Assistant Director level
and do not have sufficient time to devote to the day-to-day management of an IT
project. If the requirements of the current Operating Directive were followed such
that two representatives of the investment team were actually from the program
area, the sponsoring office would have more ownership in the project, which we
determined would reduce the time and cost to complete an IT project.

The Project Management Book of Knowledge, a well-known guide for project
management best practices, discusses the importance of project
stakeholder/customer involvement throughout the life of a project. The guide
also discusses the creation of two distinct roles; the enforcer and the supporter.
The top-level “enforcers” are sponsors of the identified approach, along with
“support” staff for consistent delivery according to the identified standards and
procedures. 46 These roles illustrate the need to ensure that at least one
individual on the program side serves as the business lead (or supporter) on an
45
  OP 24-02.01.01.01.A01, IT Investment Plan Instructions at pgs. 3-4.
46
  Project Management Best Practices: An Introduction to PMBOK, February 13, 2008 by Haydn Thomas
Julie Tilke found at www.cioupdate.com.
Assessment of the SEC Information Technology Investment Process                          March 26, 2010
Report No. 466
                                              Page 27
IT project. The business lead will ensure that the business needs of the project
are addressed and interact on a constant basis with the technical IT project
manager, further supporting the need for more direct involvement from the office
on an approved IT project. Additionally, we note that the consultant previously
retained by the agency also identified the need for more program involvement as
a problem in the 2007 briefing. 47

Survey Results Pertaining to Policy. The OIG questionnaire also asked
respondents if they were aware of the CPIC policies and procedures, as shown
in question 8 (Q8).

           (Q8). Are you or other personnel in your division/office aware
           of the Commission’s policy and other external policy, laws,
           regulations such as OMB Circular A-130, Management of
           Federal Information Resources, etc., that governs major
           information systems?

                                                            Total
                                   Yes         No         Responses
                                    19          8            27
                                  70.4%       29.6%         100%

Approximately 70 percent of respondents indicated they were aware of the
policies and procedures that govern the CPIC process, but our audit has shown
that they are not following all aspects of these governing policies and
procedures. We found that OIT has a documented set of policies and
procedures for the CPIC process and use the web-based Project and Portfolio
Management information system known as Clarity, to support the CPIC and
project management processes. The goal of the Clarity system is to provide a
central location to view all Investment Projects with an automated governance
review capability. All divisions/office should have an individual with access to the
Clarity system, especially if that office has an ongoing IT project. We were
informed by OIT that each project sponsor is encouraged to provide updates
within Clarity on the progress of the projects; however, this is not required.
Further, we found that OIT has offered training courses on the Clarity system
seven times during 2008 and 2009, and staff members from only 14 of 34 SEC
divisions/offices have attended the training courses. Full utilization of the Clarity
system by the program divisions/offices would enhance the management of IT
investments within the Commission and thus improve OIT’s ability to address the
control and evaluate phases of the CPIC process.




47
     The Consultant’s SEC Executive Briefing Responses dated November 19, 2007.
Assessment of the SEC Information Technology Investment Process                   March 26, 2010
Report No. 466
                                               Page 28
       Recommendation 8:

       The Office of Information Technology should conduct periodic internal
       reviews to ensure that the requirements in Operating Directive 24-02.01,
       Information Technology Investment Management, are enforced, (e.g., the
       requirement that two representatives from the program area be identified
       for all ongoing projects).

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OIT has concurred with this
       recommendation.

       Recommendation 9:

       The Office of Information Technology should require that all divisions and
       offices use OIT’s project management system and that they update and
       maintain the data in the system for the investments within their program
       areas.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OIT has concurred with this
       recommendation.




Assessment of the SEC Information Technology Investment Process      March 26, 2010
Report No. 466
                                        Page 29
                                                                     Appendix I


                  Acronyms and Abbreviations

APS                          Automated Procurement System
CIO                          Chief Information Officer
CPIC                         Capital Planning and Investment Control
CY                           Calendar Year
ED                           Executive Director
GAO                          Government Accountability Office
IT                           Information Technology
ITCPC                        Information Technology Capital Planning Committee
IOC                          Information Officers Council
OAS                          Office of Administrative Services
OCIE                         Office of Compliance Inspections and Examinations
OHR                          Office of Human Resources
OFM                          Office of Financial Management
OIG                          Office of Inspector General
OIT                          Office of Information Technology
PRB                          Project Review Board
PM                           Project Manager
PMO                          Project Management Office
SAM                          Strategic Acquisition Manager
SECR                         Securities & Exchange Commission Regulation
SEC or Commission            U.S. Securities and Exchange Commission
UAT                          User Acceptance Testing




Assessment of the SEC Information Technology Investment Process    March 26, 2010
Report No. 466
                                        Page 30
                                                                     Appendix II


                       Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We conducted this audit from June 2009 to November 2009. The scope
of the audit included IT investments that were approved, disapproved, cancelled,
suspended, or for which an option year was exercised between CYs January
2007 and June 2009 that cost $200,000 or more. We examined the SEC’s IT
investment process structure to determine whether it adhered to applicable laws
and regulations. We assessed a selected number of IT investment projects to
determine if they adhered to the established capital planning and investment
control policies, procedures and process that were in place at the SEC.

Methodology. To address the objective of determining whether the CPIC
process and procedures and the PRB, IOC, ITCPC structures adhere to
governing Commission policy and applicable federal laws and regulations, we
observed meetings of the three governing boards (PRB, IOC, CPC). We also
determined if the structure and procedures used followed the procedures outlined
in the SEC policies for the CPIC process. Furthermore, we reviewed the SEC’s
policies, procedures and processes for IT investments to determine if they
adhered to governing federal laws.

To address the second objective of examining whether procedures exist to
ensure that major IT investments are properly approved within the CPIC process
and are presented to the PRB, IOC and/or ITCPC as appropriate, we utilized the
information from the first objective and interviewed selected project sponsors,
project managers, board members, the CIO, ED, and relevant OIT staff. We
obtained access to OIT’s project management system, Clarity, and the restricted
CPIC SharePoint site to review pertinent documentation for selected IT projects
such as, approval documentation, project proposals, status notes, and board
meeting minutes.

Finally, to address the objective to assess whether major IT investment projects
are properly approved by the appropriate CPIC board(s), we performed
verification testing of the data housed in the project management system, the

Assessment of the SEC Information Technology Investment Process     March 26, 2010
Report No. 466
                                        Page 31
restricted CPIC SharePoint site and information revealed during interviews with
selected SEC staff.

We also developed an 11-question survey consisting of 8 multiple choice and 3
short answer questions. The questionnaire was designed to obtain feedback
from SEC divisions and offices on the Commission’s CPIC process. The survey
was issued in August 2009 to 34 SEC division/office’s technical point of contact
(POC) in the Commission’s Headquarters and its 11 regional offices, excluding
the Chairman’s and Commissioners’ offices. Of the 34 technical POCs that
received the questionnaire, 30 respondents or 88.2 percent, completed the
survey. We also conducted interviews with some of the survey respondents and
verified support documentation that was provided for the IT investment projects.

Management Controls. We reviewed the management controls that were
considered significant within the context of the CPIC process and our audit
objectives. We interviewed personnel from the:

     •   Office of the Executive Director,
     •   Office of Administrative Services,
     •   Office of Financial Management,
     •   Office of Compliance Inspections and Examinations,
     •   Office of Human Resources,
     •   Division of Enforcement, and;
     •   Office of Information Technology.

We also identified and reviewed applicable policies and procedures, obtained
and reviewed available CPIC documentation, and verified support data of
selected IT investments for compliance with the CPIC process.

Use of Computer-Processed Data. We used computer-processed data, such
as reports generated by the Clarity system, information contained on the
restricted CPIC SharePoint site, emails, and Excel spreadsheets. We did not
perform extensive testing of system or application controls because it was not an
audit objective. However, we did test the reliability of the data by testing an IT
project from each year (2007-2009) and conducting a reasonableness test of the
information by comparing the computerized data with source documents. We
concluded that the data in the systems were reliable and accurate enough to
state that overall system controls were reasonable.

Judgmental Sampling. We judgmentally selected four of seven offices/divisions
from the IT Investment Projects Questionnaire that had projects costing $200,000
or more during calendar year 2007 to June 2009. We then determined whether
these offices/divisions followed the CPIC policies and procedures for its IT
Investment Projects.

Assessment of the SEC Information Technology Investment Process      March 26, 2010
Report No. 466
                                        Page 32
Prior OIG Coverage. The OIG previously issued IT Capital Investment
Decision-Making Follow-Up, Report No. 365, on March 29, 2004. The report
noted that the Commission was making progress in the IT investment area, but
found that its process still did not meet the minimum criteria of GAO’s Information
Technology Investment Management Maturity Model and was not in full
compliance with applicable laws and regulations. The report consisted of 25
recommendations. According to the ARTS tracking system, 24 of 25
recommendations were completed, and the final recommendation was closed in
January 2010. We reviewed the documentation and analyzed the support used
to close the report’s recommendations and concluded that two recommendations
were not completely implemented, even though they had been formally closed.
Therefore, this report’s recommendations expand on two prior OIG
recommendations made in Report No. 365, pertaining to the CIO’s authority over
the CPIC process.




Assessment of the SEC Information Technology Investment Process      March 26, 2010
Report No. 466
                                        Page 33
                                                                        Appendix III


                                      Criteria

The Clinger-Cohen Act of 1996 (National Defense Authorization Act
For FY 1996; Public Law 104–106, Division E, February 10, 1996), 40 U.S.C.
§ 1401 et seq.: Reformed the way in which federal agencies acquire and
manage IT resources by establishing effective IT leadership within each agency.
Requires each agency to establish clear accountability for IT management
activities by appointing a CIO with the management responsibilities necessary to
carry out the Act’s specific provisions.

U.S. Code 44 § 3506(a): Establishes federal agency responsibilities for federal
information policy. Requires the head of each agency to designate a CIO who
will report directly to the head of the agency to carry out the responsibilities for
federal information policy.

17 C.F.R. § 200.133, Executive Director: Describes the resonsibilities and
functions of the Executive Director of the SEC.

OMB Memorandum M-09-02, Information Technology Management
Structure and Governance Framework, October 21, 2008: Reaffirms and
clarifies the organizational, functional and operational governance framework
required within the Executive Branch for managing and optimizing the effective
use of IT investments.

SEC Regulation (SECR) 24-02, Information Technology Capital Planning
and Investment Control, June 14, 2006: Defines the SEC’s IT CPIC policy and
processes, and the responsibilities for complying with key provisions of the
Clinger-Cohen Act of 1996 and other relevant authorities.

SEC Operating Directive (OD) 24-02.01, Information Technology Investment
Management, August 14, 2006: Defines the processes used in the
management of the SEC’s IT investments, as mandated by the Clinger-Cohen
Act and further specified in SECR 24-02.

SEC Implementing Instruction (II) 24-02.01.02, Information Technology
Investment Control, January 9, 2008: Defines the roles, responsibilities and
high-level workflows applicable to the control phase of the SEC’s CPIC process.

SEC Operating Procedure (OP) 24-02.02.02.02.A01, Investment Plan
Instructions, January 24, 2008: This guide show the various sections of the
standard investment plan ad provides for contributions by the entire investment
Assessment of the SEC Information Technology Investment Process         March 26, 2010
Report No. 466
                                        Page 34
team to the completion and maintenance of the plan, as coordinated by the
designated project manager.

Project Management Institute, A Guide to the Project Management Body of
Knowledge, 3rd edition, 2004: This guide identifies and describes the subset of
terms that are generally accepted within the project management profession.




Assessment of the SEC Information Technology Investment Process   March 26, 2010
Report No. 466
                                        Page 35
                                                                    Appendix IV

                     List of Recommendations

Recommendation 1:
The Office of Information Technology should improve its oversight of information
technology investments to ensure that projects are in compliance with the
requirements in its Capital Planning and Investment Control policies and
procedures specifically dealing with the implementation of the control and
evaluate phases of the Capital Planning and Investment Control process.

Recommendation 2:
The Office of Information Technology should require status updates be provided
for all ongoing projects every six months to manage resources (staff, cost and
time) for information technology investments over $200,000 and above.

Recommendation 3:
The Office of Information Technology should immediately fill the position of
Assistant Director for the Project Management Office with an experienced and
qualified candidate.

Recommendation 4:
The Office of Information Technology should perform an assessment of the
project management function to compare the current ratio of projects per project
manager to the industry’s acceptable ratio of projects per project manager.

Recommendation 5:
The Chairman should formally delegate authority to the Chief Information Officer
necessary for the management and oversight of the Capital Planning and
Investment Control process, to include the full authority to develop and execute
all information technology policy, as approved by the Chairman.

Recommendation 6:
The Chairman should revise 17 CFR § 200.13 to provide the Chief Information
Officer (CIO) with full authority to develop and issue Information Technology
policies and carryout the prescribed substantive responsibilities under 44 U.S.C.
§ 3506 and OMB Guidance M-09-02 and remove the CIO/Director of the Office of
Information Technology from under the supervision of the Executive Director or
any position other than the Chairman for those substantive responsibilities.


Assessment of the SEC Information Technology Investment Process     March 26, 2010
Report No. 466
                                        Page 36
Recommendation 7:
The Office of Information Technology should revise the SECR 24-02 to:

   •   Add a responsibility that the Division Directors, Office Heads, and
       Regional Directors ensure that all information technology investments
       within their responsibility adhere to the Capital Planning and Investment
       Control policies and procedures.

   •   Create an enforcement mechanism for the Chief Information Officer and
       Information Officers Council to utilize when they discover investments that
       have been funded outside of the Capital Planning and Investment Control
       process.

Recommendation 8:
The Office of Information Technology should conduct periodic internal reviews to
ensure that the requirements in Operating Directive 24-02.01, Information
Technology Investment Management, are enforced, (e.g., the requirement that
two representatives from the program area be identified for all ongoing projects).

Recommendation 9:
The Office of Information Technology should require that all divisions and offices
use OIT’s project management system and that they update and maintain the
data in the system for the investments within their program areas.




Assessment of the SEC Information Technology Investment Process      March 26, 2010
Report No. 466
                                        Page 37
                                                                                                     Appendix V

                                   Management Comments

                                                     UNITED STATES
                                SECURITIES AND EXCHANGE COMMISSION
                                              VVASHINGTON,       D.C.20S49



THE CHAIRMAN


                                                     I\IJemor'andum

 Date:               March 12.2010

To:                  David Kotz, In~pector .Jenera I, OIG
                     Jacqueline Wil:;on, Assistant Inspector Get:lcral, OIG

From:                Mary L. Schapiro,   Chairma~ct-~
Subject.:            Response to OIG Report 466, Assessment (if'the SEC          ll~"'(.,.mafjon
                     Technology investment Process


          I appreciat.e the opportunity to comment on certain aspects of your recent rt:vic\.' of the SE s
inrom1ation technology (IT) investment process (Draft Report No. 466, Assessment (,j'the SE .
1'1(CJrmatiol1 TechnoloK)/ Investment Process, Feb. 23,2010), My COlnments here focus on
,'L·C",II1Olcn.:i<ltions 5 and G and related findings, which are addressed to me. I underslund the Din'clor of
th,~ Office or i;ltormation Teclmology will be commenting on other aspects of the draft report.


          The size and comp"=xicy of the U.S. capital Inarkets the ~E :is responsible for monitol'ing I,llake
;! :~.\pe(alive that the SI~C make the best possible use of technology to leverage its stafPs ~xpe1'lisc. A
sound IT investment pl'('Ce'i:" musl lead to strategically !c)cllsed acquisitions that are both prudent and
(,rcativc. I am, theref()I·e. pleased to note the significant. improvement yow' draft report fo md since the
i"!.st such assessment ip. 2004 (Repol1. No. 365. IT Capilal lnvestmen 'Decision-Making Fo!L()'w-up, Mar.
29.2004).

         That progress continues. In January ')fthis yea.r, <lfter an intel"nal review of roles and
Tc~'pollsibiJities relating to th' SEC' n i'1vestments. [ approved revised charters for the thrce distim':l
bodic.": ttml I'evie"v and appr vc proposed IT investments, I am cOlltident that these revised processes
address a !lumber of the <:011l.:.:n15 rai.sed in this reporl, which was. of n cessity, based largely on
ObS":I-,utiol1s of practice un IeI' tb~ now superseded IT investment' proce "scs.

           1 am ,·'.HI1:nitted to having a      'hicf'lntormalion Officer (CIO) who is fully empo",··cp.·d to meet
lhL'   !,,~portHnr re ponsibilirj ..~~ envisioned hy the Clinge"-Coh n Act t,CC ) ~md othel' appli';nblt: i:lv's al1d
irnplclTJen~ing. glii~.b!1c\;' A:; a result and .~ubject to the comments that follow. I concll!' in,
n, :,)lrmlC;;'lldat;oil:; 5 and b inasl11u<"'h ::IS ttl..", point out that 1.h", SEC~'; CIO'lnust have ali authority
requir",J by Ia"'" and necessary 1< dischdr:;e his n:"pon:;ibilities.

            Rl:C";·jllnendiUi(ln~:' and 6 aiso a;.:sen that, ,- <'.'1 after the ddegalions 01" auth rity my predeces:,oT
'1lade \.0 tilt:; C!O in 2Q07, the CIO does not havt:: th", full aut!\Ot'ity mandated hy the "Iinger- ~oh<.:,r. ,'\C·;
nnd, related OHicc ofM<.tnagement and Bl'dg-et (OMB) implt.:menting guidance. While 1 am inform<.,~
that Ihe intcl1lion of the 2007 delegations \~as to fuJI) implement all applicable legal re tuircments. I al1l
,<~kil1g OUI' General Counsel 'to ;,dvisc me a..: 10 w!1cther the Cllnen( delegations do. in fact. give the C\O
',.11 ~mth()ril. the iii""· and :-e'ated in1pklnenting m.li'l';':<ll·';~: r"~llin:,. Should th Geil'~I'al Counsel cOllcJud",




       Assessment of the SEC Information Technology Investment Process                              March 26, 2010
       Report No. 466
                                                       Page 38
Assessment of the SEC Information Technology Investment Process   March 26, 2010
Report No. 466
                                        Page 39
                                        Memorandum

Date:        March 11,2010

To:          David Katz, Inspector General, OIG
             Jacqueline Wilson, Assistant Inspector General, OIG

From:        Charles Boucher. Chief Information Officer, OIT ~ C IS...-...t'"~
cc:          Kayla Gillan, Deputy Chief of Staff, Office of the Chairman
             Diego Ruiz, Executive Director, OED

SUbject:     Management Response to OIG Report 466, Assessment of the SEC Information
             Technology Process


      The Office of Information Technology appreciates the opportunity to comment on the
subject report. This memo responds to the seven recommendations directed to OIT only; as I
understand, the Office of the Chairman will respond to the other two (#5 and #6).

         We are pleased with the Office of Inspector General's acknowledgement of the
significant progress that the SEC has made since the OIG previously examined the issue of
information technology investment six years ago (Report No. 365, March 29. 2004). At that
time, the OIG identified major deficiencies in the agency's IT capital investment decision-
making process, including that a majority of spending on IT investments did not go through the
established IT Capital Planning and Investment Control process (CPIC). The 2004 report
contained 25 recommendations for agency action to address a broad range of deficiencies. To
address these recommendations, the agency has since undertaken significant efforts, involving
the commitment of substantial resources, to improve oversight and controls over IT decision-
making. And as you know, the agency has in fact successfully completed corrective action on
all of the recommendations from this previous report.

       In contrast to 2004, the current OIG report concludes that the SEC has a documented
structure, approval process. and adequate procedures for the approval and oversight of IT
investments that adhere to governing Commission policy and applicable federal law and
regulations. The OIG's report also acknowledges that the SEC ~has gone to great lengths, and
expended significant resources" to implement this improved IT Capital Planning and
Investment Control process.

       While these achievements demonstrate the real improvements that have been made in
the past several years, we are committed to continue to work for further improvement in
controls and oversight over IT capital decision-making. For this reason, we welcome the
findings and recommendations of the Office of Inspector General, and are pleased to respond
and provide comments on your final report.




Assessment of the SEC Information Technology Investment Process            March 26, 2010
Report No. 466
                                        Page 40
        We concur, with comment, on the seven recommendations directed to OIT. We agree
with the intent of these recommendations: to strengthen compliance with capital investment
policies and procedures; provide improved reporting on project status; further enhance OIT's
project management capabilities; and ensure the active involvement of program offices in
system design and implementation. These goals are consistent with our goals for OIT. I
would like to share with you my comments on three issues in the report where I believe that
clarifications or additional information are needed.

        First, with respect to the discussion on pages 10-14 regarding the agency's 2008
decision to cancel the Strategic Acquisition Manager (SAM) IT project, I was not at the SEC at
that time. However, I've been informed that the OIG report accurately notes that the SAM
project, whose initiation had been approved by the Information Officers Council (IOC) in April
2005, was cancelled in the spring of 2008 as a result of poor performance.               These
performance problems included major unresolved system defects, little or' no quality control
over bug fixes, significant turnover of vendor personnel and lack of qualified customer service
support. In accordance with the Federal Acquisition Regulation, a Cure Notice was issued to
the vendor in March 2008. The decision to cancel the contract was made after the vendor
indicated that an attempt to correct the problems could result in the expenditure of substantial
taxpayer dollars and there was no guarantee that such problems could be fixed. As I also
understand, throughout this process, the Office of Administrative Services (OAS), which is
responsible for overseeing agency contracts, worked in close collaboration with OIT and the
then-CIO, and relied extensively on OIT's technical expertise. After the decision to cancel the
contract, OAS made a two hour presentation to the Project Review Board (PRB) and IOC on
lessons learned and on its plans to re-compete the contract. Although the report is correct that
the IOC never formally approved the replacement contract, I understand that the IOC was
periodically apprised of further progress.

         I also want to mention that both situations identified in your report as deviating from
policy were projects that terminated either the contract or the entire project. It is important to
note that, in the past, the agency's CPIC project approval activities overlapped with budget
activities, and the roles and responsibilities of the SEC's Senior Procurement Executive were
not integrated fully within the CPIC process. In January 2010, however, the SEC approved
new charters for the PRB and IOC that. among other things, assign the panels new
responsibilities to provide oversight and project management assistance to IT projects after
they are selected. The new PRB charter. for instance, specifically requires reports to be
provided if a project is not expected to meet cost. schedule or performance levels established
in its baseline. With the new charters in place. the agency now has a suitable framework in
place to review instances, such as was identified with SAM several years ago, of poor IT
contractor performance. The new charter, for the first time, lists the Head of the Contracting
Agency as a voting member of the Board.

       Second, with respect to the report's findings on pages 15-18 regarding project
management. over the past few years OIT has maintained a centralized project tracking
system to help manage the delivery of technology projects, with a clear overall record of on
time, under budget, and within scope results. While I agree with the two recommendations
suggested by OIG, I do not believe that an accurate indication of OIT's project management
capabilities can be measured merely by counting the number of OIT staff who have obtained
non-required project management certificates. In addition, given the significant number of IT
projects underway at any given time, as a general matter OIT has found it more effective to

                                                2




  Assessment of the SEC Information Technology Investment Process                March 26, 2010
  Report No. 466
                                            Page 41
assign project management responsibilities broadly throughout the office, rather than rely on a
limited number of project management specialists to oversee IT projects. Finally, we would
note that many OIT staff who perform core project management oversight also receive
supplemental project management assistance from the contractors.

         Finally, with respect to the results of OIG's survey reported on pages 23-28, while we
agree with OIG on the vital importance of ensuring that program offices are fully involved with
critical decisions, such as defining an IT project's requirements or its implementation, we do
not agree with your conclusion that, because divisions and offices do not independently
maintain information about IT projects and instead refer to the OtT project tracking system, this
means that businesses "were not sufficiently involved in their IT projects." To the contrary, we
strongly believe that keeping track of the status of IT projects in a single centralized system is
a more efficient way to track progress, and we also have specialized staff to ensure
consistency and perform management reporting. Further, while the report notes that "business
sponsors are often at the Associate or Assistant Director level and do not have sufficient time
to devote to day-te-day management of an IT project" in fact, day-to-day oversight of a project
is properly the responsibility of the Project Manager, not the Business Sponsor, who is not
expected to be involved with day-to-day management but instead to provide the business
authority and overall support to implement the project. This being said, I also agree that the
partnership between OIT and the SEC's businesses on technology projects can and should be
strengthened, and made more consistent throughout the organization.

        In closing, thank you for your work on this audit, and for the opportunity to provide
comments on your review of the SEC's IT investment process. Because of the important role
that information technology plays in enabling the SEC to successfully carry out its mission, I
welcome the results of your review, and am committed to continuing to build on the significant
progress that has been made to date.




                                                3




 Assessment of the SEC Information Technology Investment Process             March 26, 2010
 Report No. 466
                                         Page 42
                                                                    Appendix VI

              Office of Inspector General
         Response to Management’s Comments

We are pleased that the Office of the Chairman and OIT have concurred with all
of the report’s 9 recommendations. We feel these recommendations when
implemented will strengthen the CIO’s authority as required by law and will
improve the Commission’s ability to comply with mandated statutes, regulations
and guidance as they pertain to the management and oversight of capital
investments. Below is OIG’s response to OIT’s management comments on
Findings 1, 2, and 5.

In OIT’s management comments to Finding 1, the CIO acknowledged that “the
[OIG] report is correct that the IOC never formally approved the replacement
contract,” although the CIO stated that he understood that the IOC was
periodically apprised of progress. However, as we found in our audit, and is not
disputed by OIT, OAS was allowed to commence the APS project without formal
approval from the CPIC boards. Providing the CPIC board members with a
“lessons learned” presentation regarding cancelling the SAM IT project after the
fact does not constitute compliance with the established IOC process and
procedures. Moreover, these procedures clearly require formal approval, not
simply being periodically apprised of the progress of a project. We would also
note that OIT did not dispute in its management comments our concern that OIT
had already received approved funding from the SEC Executive Director for the
APS project before and without going through the Commission’s established
boards.

Secondly, in OIT management comments to Finding 2, the CIO stated ”I agree
with the two recommendations suggested by the OIG,” although he noted he did
not believe that an accurate indication of OIT’s project management capabilities
can be measured by counting the number of OIT staff who have obtained project
management certificates. We would point out that the finding in our report that
project managers were unable to dedicate the necessary time to manage
projects properly was based not only on the fact that there were 220 projects
assigned to only 12 certificated project managers, but also on direct feedback
from project managers and specific and concrete examples where problems with
projects were directly attributed to inadequate project management. Further,
while we take no position on management’s decision to assign PM
responsibilities broadly throughout the office rather than relying upon a limited
number of PM specialists, we must however highlight that the roles and
responsibilities in CPIC policy requires a PM for IT investments, to meet PM


Assessment of SEC Information Technology Investment Process         March 26, 2010
Report No. 466
                                       Page 43
qualifications as described in OD 24-02.04, IT Project Management Qualification
Standards.

Finally, with respect to the OIG survey issued and its results in Finding 5, we
note that OIT misinterpreted this finding in its management comments. The CIO
stated in the OIT comments that he does “not agree with [the OIG’s] conclusion
that, because divisions/offices do not independently maintain information about
IT projects and instead refer to the OIT project tracking system, this means that
businesses ‘were not sufficiently involved in their IT projects.’” We must point out
that our audit did not raise an issue with the program offices utilizing the project
tracking system. We agree that keeping track of IT projects in a single
centralized system is efficient and in fact, encourage use of the project tracking
system as recommendation 9, states that “OIT should require all divisions and
offices use the project management system . . . .” However, our audit found that
the fact that a significant percentage (57%) of offices/divisions were unable to
provide basic data about their projects without having to request the information
from OIT was a strong indication that these divisions/offices were not sufficiently
involved in their IT projects. In addition, with respect to the CIO’s comment about
the day-to-day oversight of a project being the responsibility of the project
manager, not the business sponsor, we would note that in our view, and as
discussed in the Project Management Book of Knowledge, the business lead
should also play a significant day-to-day role in ensuring that the business needs
of the project are addressed and in interacting on a constant basis with the
technical IT project manager. Thus, our concern that these business sponsors
are at the Associate or Assistant Director level remains.




Assessment of the SEC Information Technology Investment Process       March 26, 2010
Report No. 466
                                        Page 44
                      Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061 Freedom of Information Act (FOIA)
Fax # 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at
      Commission, contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-Based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
